<html>
<title> - TRAVEL VS. TERRORISM: FEDERAL WORKFORCE ISSUES IN MANAGING AIRPORT SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  TRAVEL VS. TERRORISM: FEDERAL WORKFORCE ISSUES IN MANAGING AIRPORT 
                                SECURITY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2006

                               __________

                           Serial No. 109-176

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-848                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2006....................................     1
Statement of:
    Berrick, Cathleen, Director, Homeland Security and Justice 
      Issues, U.S. Government Accountability Office; Robert 
      Jamison, Deputy Secretary for Security Operations, 
      Transportation Security Administration; Kathy Dillaman, 
      Deputy Associate Director for the Center for Federal 
      Investigative Services, Office of Personnel Management; and 
      Dawn E. Lucini, airport security administrator, McCarran 
      International Airport, Las Vegas, NV, on behalf of the 
      Clark County Department of Aviation, owner and operator of 
      McCarran International Airport.............................    13
        Berrick, Cathleen........................................    13
        Dillaman, Kathy..........................................    63
        Jamison, Robert..........................................    56
        Lucini, Dawn E...........................................    68
Letters, statements, etc., submitted for the record by:
    Berrick, Cathleen, Director, Homeland Security and Justice 
      Issues, U.S. Government Accountability Office, prepared 
      statement of...............................................    16
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     9
    Dillaman, Kathy, Deputy Associate Director for the Center for 
      Federal Investigative Services, Office of Personnel 
      Management, prepared statement of..........................    65
    Jamison, Robert, Deputy Secretary for Security Operations, 
      Transportation Security Administration, prepared statement 
      of.........................................................    58
    Lucini, Dawn E., airport security administrator, McCarran 
      International Airport, Las Vegas, NV, on behalf of the 
      Clark County Department of Aviation, owner and operator of 
      McCarran International Airport, prepared statement of......    70
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     5


  TRAVEL VS. TERRORISM: FEDERAL WORKFORCE ISSUES IN MANAGING AIRPORT 
                                SECURITY

                              ----------                              


                         TUESDAY, APRIL 4, 2006

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jon C. Porter, 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Schmidt, Davis of Illinois 
and Van Hollen.
    Staff present: Ronald Martinson, staff director; Patrick 
Jennings, OPM detailee/senior counsel; Alex Cooper, legislative 
assistant; Tania Shand, minority professional staff member; and 
Teresa Coufal, minority assistant clerk.
    Mr. Porter. I would like to bring the meeting to order, a 
quorum being present. Thank you all for being here this 
afternoon. I know that we have just filled the room, so that is 
good. If we need some more chairs, we will be happy to bring 
some in a little bit later. Again, I do appreciate those that 
have come across the country and for those that are here today.
    Although for the most part, airport security is moving in 
the right direction, it is an area that deserves close 
congressional scrutiny from all relevant congressional 
committees to ensure that our airports continue to be safe and 
secure. The American public deserves nothing less. Federal 
employees play an integral role in airport security in a 
variety of ways. The hearing today will examine that role and 
address ways to improve upon staffing and human capital 
programs within DHS. In addition, I am also interested in 
learning more today about the foreign management of some of our 
airports.
    Recently, the Dubai ports deal was reported by the press, 
and people were understandably concerned that the deal would 
have allowed a foreign company to operate some of the country's 
largest seaports. Not many people know, however, that 
operations at some our largest international airports are also 
operated by foreign firms. For example, Indianapolis 
International Airport is managed by the British Airlines, a 
subsidiary of British Airports Authority, BAA USA, to be 
specific. BAA also manages the concessions in the passenger 
terminal at Pittsburgh International Airport. Terminal 4 at JFK 
International Airport is operated by a consortium led by a 
subsidiary of a company based in the Netherlands. The terminals 
at Orlando Sanford International Airport are operated by a 
Spanish company.
    I believe that the issue of who manages and who works at 
our airports deserves our attention and certainly out scrutiny. 
We need to know who checks the backgrounds of these companies 
and their employees. We need to know how these companies and 
their employees are cleared to operate at our airports across 
the country.
    I has been almost 5 years since the attacks on September 
11, 2001. After the attacks, we made many positive steps 
forward in Government organization and airport security 
procedures. In 2001, Congress established the Transportation 
Security Administration. In January 2003, 22 Homeland Security 
agencies were brought together when the Department of Homeland 
Security came into existence. In terms of security operations, 
the baggage screening process at airports has been placed under 
Federal control. The number of air marshals has been increased, 
and TSA Federal Security Directors have been assigned to the 
Nation's more than 440 commercial airports to lead and 
coordinate the TSA security activities.
    Unfortunately, we still have a long way to go in terms of 
airport security. A quick scan of news reports from 2006 alone 
provides some examples that illustrate problems within DHS's 
control.
    On February 27, 2006, a Will Rogers World Airport in 
Oklahoma City, authorities found threatening graffiti in the 
cargo hold of an airliner. An airport spokeswoman noted that 
the markings were found in a place that should only have been 
accessible by authorized personnel.
    On March 6, 2006, at John F. Kennedy International Airport 
in New York, an elderly man drove his car through two guard 
gates onto the tarmac in the early hours of the morning. The 
driver entered an area managed by a private contractor. 
Eventually he crossed at least one active runway, where an Air 
France jet was about to land. About 23 minutes after the 
incident started, the Port Authority Police intercepted the 
man.
    That same day at Midway International Airport in Chicago, a 
man ran through a gate into a secure area while the gate was 
opened for a vehicle. As a result, runway 4 was closed briefly. 
Out of the three perimeter gates at Midway, the man apparently 
got through the only one without a security camera. In response 
to this event, airport authorities said they would retrain 222 
aviation security officers and redesign the perimeter gates.
    On March 11, 2006, news reports indicated that Federal 
officials removed the head of security at Newark Liberty 
International Airport following 4 years of security breaches 
and staffing problems.
    On March 31, 2006, two baggage screeners at the Honolulu 
International Airport pleaded guilty to stealing thousands of 
dollars in yen from the luggage of Japanese tourists. According 
to prosecutors, the two screeners admitted to being among a 
group of security screeners who stole money from the baggage of 
outbound international travelers and divided the cash.
    Despite these reports, I believe that Federal and private 
security employees at airports are doing the best they can 
under some difficult circumstances. However, we need to examine 
this situation from a work force standpoint to ensure that we 
are doing all we can to help the people protecting our 
airports.
    The subcommittee will examine the hiring, background 
screening, training and deployment of Federal and private 
sector employees working at airports. Airport security is the 
responsibility of the Department of Homeland Security. Two 
components of DHS have key missions at airports--the 
Transportation Security Administration and Customs and Border 
Protection. DHS deploys and trains an airport security work 
force that includes TSA Federal Security Directors, 
Transportation Security Officers, known as ``screeners,'' and 
CBP inspectors. In addition to security operations, DHS sets 
the rules for airport and air carrier security. Specifically, 
DHS sets standards for airport perimeter security, access 
controls and airport and air carrier security activities, and 
due to recent legislation, the TSA is working to implement an 
identification system for worker access at seaports and at 
airports.
    The Office of Personnel Management also plays a major role 
in airport security. OPM's Federal Investigative Services 
Division conducts background checks of Federal employee and 
contractors working at our airports. OPM is responsible for 
ensuring Federal and contract airport employees are 
investigated thoroughly before they are hired. OPM accomplishes 
this by checking job applicants against fingerprint records, 
national criminal data bases at the FBI, and other sources, to 
ensure that the applicants have no disqualifying factors in 
their background.
    Airport security is of critical importance to the Nation. 
According to the Air Transport Association of America, in 2004 
the total impact of commercial aviation on the U.S. economy was 
approximately $1.2 trillion in growth output, $380 million in 
personal earnings, and 11.4 million jobs. Approximately 8.8 
percent of U.S. employment is directly or indirectly 
attributable to the commercial aviation sector. In my district, 
where McCarran Airport is located, which I think is one of the 
best in country, if not in the world--I will put in a plug for 
Las Vegas--we have 44.3 million air travelers that are passing 
through McCarran each year. Most of these travelers are 
tourists. Tourism is by far the most important part of the Las 
Vegas economy. Las Vegas and the rest of the country can't 
afford another disruption of air travel like we experienced 
after September 11th. We need to find a balance between 
security and the need to move air travelers efficiently through 
our airports. Our country depends upon air transportation, and 
air transportation in turn on the airport security personnel. 
Proper management and security at airports is a matter of 
national security. Thats I why the issues we will examine today 
are vital issues to be addressed by this subcommittee.
    As I mentioned, being from the communities of Nevada and 
Las Vegas, I remember quite well, personally, September 11th, 
because I had at that time a view of the landing pattern of 
McCarran International, and I remember that day when there 
wasn't a bird in the sky or a plane in the sky. And it is one 
of those moments I think in time, as we look back, whether it 
be the Kennedy assassination or whatever, I think we each have 
these moments of time that we remember like a photograph. I 
remember that day when the planes were not flying and cars were 
not driving. From that moment on, I knew we had to change the 
way we do business in this country, and I applaud those folks 
that have been working very hard to ensure traveler safety, but 
I still think we have a long way to go.
    So today, I have invited witnesses from the GAO, TSA, OPM 
and McCarran International Airport to discuss airport work 
force issues. As I said, I hope this discussion will reveal 
areas that need attention, help clarify some roles of all the 
employees involved in airport security, and I look forward to a 
discussion with all the witnesses that are here this afternoon.
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.001
    
    [GRAPHIC] [TIFF OMITTED] T9848.002
    
    [GRAPHIC] [TIFF OMITTED] T9848.003
    
    Mr. Porter. I would like to now again say welcome to all of 
you who are here today, and introduce our ranking minority 
member, Mr. Danny Davis, for any opening comments.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    When this subcommittee was considering the legislation that 
created the Transportation Security Administration [TSA], the 
Aviation and Transportation Security Act [ATSA], there was much 
debate about whether airport screeners at the new agency would 
be Federal employees or private contractors. It was a very 
vigorous debate, and a compromise of sorts was reached. Within 
1 year of being created, TSA was mandated to hire Federal 
employees to take over airport screening services at all but 
five U.S. commercial airports. Those five airports were 
permitted to hire private screening companies as part of a 
pilot program. All other airports were allowed by the ATSA, 
after November 19, 2004, the choice of maintaining Federal 
screeners or opting out and using private contractors.
    Both Federal and private airport screeners have been 
providing their services long enough for us to know how the two 
groups performed. Reports by the Government Accountability 
Office [GAO], and TSA's Office of Inspector General have shown 
little difference between Federal screeners and private 
screeners. They both perform in an equally poor manner.
    The question that needs to be answered here is why. Do we 
have enough Federal screeners? What are the staffing levels? 
Why is there a hiring cap of 45,000 screeners? Are Federal 
screeners adequately trained? Do airports have high-speed 
Internet access so that screeners can take advantage of online 
training? Is TSA taking advantage of aviation security 
technologies for checkpoint screenings? All of these questions 
must be answered and addressed before any judgment can be made 
about the effectiveness of Federal screeners. Today's 
witnesses, of course, are in a position to help us address and 
understand these issues, and I look forward to their testimony.
    And thank you, Mr. Chairman, for calling this hearing, and 
I yield back the balance of my time.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.004
    
    [GRAPHIC] [TIFF OMITTED] T9848.005
    
    [GRAPHIC] [TIFF OMITTED] T9848.006
    
    [GRAPHIC] [TIFF OMITTED] T9848.007
    
    Mr. Porter. Thank you, Mr. Davis. Again, we appreciate you 
being here today.
    I would like to do some procedural matters. I would like to 
ask unanimous consent that all Members have 5 legislative days 
to submit written statements and questions for the hearing 
record, and the answers to written questions provided by the 
witnesses also be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that all exhibits, documents, and 
other materials referred to by Members and their witnesses may 
be included in the hearing record, that all Members will be 
permitted to revise and extend their remarks.
    Without objection, so ordered.
    It is also the practice of this committee to administer the 
oath to all witnesses, so if you all would stand for a moment, 
please, and raise your right hands.
    [Witnesses sworn.]
    Mr. Porter. Let the record reflect that the witnesses have 
answered in the affirmative. Please be seated.
    As with most congressional hearings, we will have Members 
that will be coming and going throughout the afternoon, but 
know that everything that is said today will be included in the 
record and be used for our decision process later on. So, 
again, we appreciate you being here.
    I would like to begin by combining the panels, which we 
have done, and let you know that each will have approximately 5 
minutes and then we will be asking questions. Some of the 
questions will be asked in writing, so you will have some time 
to submit the answers.
    First I would like to welcome today our Director of 
Homeland Security at the Government Accountability Office. That 
is Ms. Cathleen Berrick, and we appreciate you being here. So, 
please, open your testimony.

STATEMENTS OF CATHLEEN BERRICK, DIRECTOR, HOMELAND SECURITY AND 
 JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; ROBERT 
      JAMISON, DEPUTY SECRETARY FOR SECURITY OPERATIONS, 
TRANSPORTATION SECURITY ADMINISTRATION; KATHY DILLAMAN, DEPUTY 
  ASSOCIATE DIRECTOR FOR THE CENTER FOR FEDERAL INVESTIGATIVE 
 SERVICES, OFFICE OF PERSONNEL MANAGEMENT; AND DAWN E. LUCINI, 
AIRPORT SECURITY ADMINISTRATOR, MCCARRAN INTERNATIONAL AIRPORT, 
  LAS VEGAS, NV, ON BEHALF OF THE CLARK COUNTY DEPARTMENT OF 
 AVIATION, OWNER AND OPERATOR OF MCCARRAN INTERNATIONAL AIRPORT

                 STATEMENT OF CATHLEEN BERRICK

    Ms. Berrick. Thank you, Mr. Chairman, and Mr. Davis, for 
inviting me to discuss the progress TSA has made and the 
challenges it faces in managing a Federal work force to support 
aviation security. My testimony today focuses on the 
management, deployment and training of a Federalized security 
work force with operational responsibility for passenger and 
checked baggage screening, any actions TSA has taken, and the 
challenges it faces to provide regulatory oversight of other 
airport security activities.
    Regarding TSA's efforts to manage, deploy and train a 
Federal security work force, TSA has made significant progress 
in these areas but continues to face staffing and training 
challenges.
    Regarding security leadership, the TSA Federal Security 
Director is the ranking Federal authority responsible for 
security at commercial airports. We found that despite initial 
difficulties, Federal Security Directors have since formed 
effective partnerships with key airport stakeholders, and have 
improved coordination efforts to address airport security 
needs. However, we found that TSA had not clearly delineated 
the Security Director's authority related to other airport 
stakeholders, which sometimes resulted in confusion when a 
security incident arose.
    Federal Security Directors are also responsible for 
overseeing airport, passenger and checked baggage screening 
operations performed by about 40,000 Transportation Security 
Officers [TSOs]. We found that TSA has taken a number of steps 
to improve the training and performance of the TSO work force, 
although areas for improvement exist.
    For example, TSA has significantly increased the amount of 
training available to TSOs and have made changes to training 
programs based on identified vulnerabilities. However, 
insufficient staffing has made it difficult for all TSOs to 
have the time needed to take required training. We found that 
Federal Security Directors at about half of the 263 airports we 
surveyed reported there was not sufficient time for TSOs to 
receive required training within regular work hours.
    In addition, a lack of high-speed Internet capability at 
about half of the Nation's airports have prevented many TSOs at 
these airports from fully utilizing TSA's online learning 
center.
    TSA has also developed a staffing allocation model to 
identify needed TSO staff allocations at airports. However, TSA 
has had difficulty attracting and retaining a part-time TSO 
work force needed to address staffing needs. Some screeners are 
used to performing administrative duties at airports due to a 
lack of administrative staff.
    In addition to having operational responsibility for 
passenger and checked baggage screening, TSA also has oversight 
responsibility for air cargo security and the security of 
airport perimeters and restricted areas. We reported in October 
2005 that TSA had significantly increased the number of 
domestic air cargo inspections it conducted of air carriers and 
freight forwarders or entities that consolidate cargo for 
transportation to the airport. However, we found that TSA did 
not determine to what extent air carriers and freight 
forwarders were complying with existing security requirements, 
and had not analyzed the results of its inspections to target 
future areas of highest risk.
    TSA also established a requirement for the random 
inspection of air cargo, a reflection of the agency's position 
that inspecting 100 percent of air cargo is not feasible. We 
found that TSA established exemptions that allow certain cargo 
to go uninspected, which if become known to shippers and could 
potentially cause security weaknesses.
    Related to airport perimeter security and access controls, 
we found that TSA had begun conducting compliance inspections 
of airport operators, and had conducted covert testing of 
selected security procedures. We also found that TSA required 
background checks for most airport workers, required by 
legislation.
    Regarding measuring the effectiveness of its screening 
systems, TSA has made significant progress in testing the 
screening components, including establishing an annual 
recertification program for TSOs. However, despite these 
efforts, testing has shown that weaknesses and vulnerabilities 
continue to exist in the screening system.
    In conclusion, TSA has made significant progress in 
managing and deploying a Federal work force to conduct and 
oversee security activities at the Nation's airports, including 
hiring, deploying and training a work force of over 40,000 
Transportation Security Officers. However, as TSA moves 
forward, opportunities for further strengthening Federal 
security efforts exist.
    Mr. Chairman, this concludes my opening statement. Thank 
you.
    [The prepared statement of Ms. Berrick follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.008
    
    [GRAPHIC] [TIFF OMITTED] T9848.009
    
    [GRAPHIC] [TIFF OMITTED] T9848.010
    
    [GRAPHIC] [TIFF OMITTED] T9848.011
    
    [GRAPHIC] [TIFF OMITTED] T9848.012
    
    [GRAPHIC] [TIFF OMITTED] T9848.013
    
    [GRAPHIC] [TIFF OMITTED] T9848.014
    
    [GRAPHIC] [TIFF OMITTED] T9848.015
    
    [GRAPHIC] [TIFF OMITTED] T9848.016
    
    [GRAPHIC] [TIFF OMITTED] T9848.017
    
    [GRAPHIC] [TIFF OMITTED] T9848.018
    
    [GRAPHIC] [TIFF OMITTED] T9848.019
    
    [GRAPHIC] [TIFF OMITTED] T9848.020
    
    [GRAPHIC] [TIFF OMITTED] T9848.021
    
    [GRAPHIC] [TIFF OMITTED] T9848.022
    
    [GRAPHIC] [TIFF OMITTED] T9848.023
    
    [GRAPHIC] [TIFF OMITTED] T9848.024
    
    [GRAPHIC] [TIFF OMITTED] T9848.025
    
    [GRAPHIC] [TIFF OMITTED] T9848.026
    
    [GRAPHIC] [TIFF OMITTED] T9848.027
    
    [GRAPHIC] [TIFF OMITTED] T9848.028
    
    [GRAPHIC] [TIFF OMITTED] T9848.029
    
    [GRAPHIC] [TIFF OMITTED] T9848.030
    
    [GRAPHIC] [TIFF OMITTED] T9848.031
    
    [GRAPHIC] [TIFF OMITTED] T9848.032
    
    [GRAPHIC] [TIFF OMITTED] T9848.033
    
    [GRAPHIC] [TIFF OMITTED] T9848.034
    
    [GRAPHIC] [TIFF OMITTED] T9848.035
    
    [GRAPHIC] [TIFF OMITTED] T9848.036
    
    [GRAPHIC] [TIFF OMITTED] T9848.037
    
    [GRAPHIC] [TIFF OMITTED] T9848.038
    
    [GRAPHIC] [TIFF OMITTED] T9848.039
    
    [GRAPHIC] [TIFF OMITTED] T9848.040
    
    [GRAPHIC] [TIFF OMITTED] T9848.041
    
    [GRAPHIC] [TIFF OMITTED] T9848.042
    
    [GRAPHIC] [TIFF OMITTED] T9848.043
    
    [GRAPHIC] [TIFF OMITTED] T9848.044
    
    [GRAPHIC] [TIFF OMITTED] T9848.045
    
    [GRAPHIC] [TIFF OMITTED] T9848.046
    
    [GRAPHIC] [TIFF OMITTED] T9848.047
    
    Mr. Porter. Thank you very much.
    Next we have Mr. Robert Jamison, the Deputy Secretary of 
Security Operations, Transportation Security Administration. 
Before you begin, I would like to comment from a Las Vegas 
perspective that although we still have our challenges, TSA has 
worked very closely with McCarran International in being a 
destination airport, unlike the Atlantas of the world, or my 
colleague from Chicago, O'Hare, with folks that are passing 
through. But work very closely, especially in the early days we 
had some challenges, right, Jim? We had a few challenges 
because of our visitor volume, and with the times or whatever, 
the electronic convention, or what type of show was in town, we 
learned together. And I would like to compliment TSA again. I 
have my areas where I can be critical, and will at some point, 
but I think there has been a lot of cooperation, and appreciate 
what you have done.

                  STATEMENT OF ROBERT JAMISON

    Mr. Jamison. Thank you, Mr. Chairman. I know Jim thanks 
you, as well as Jose in Las Vegas.
    Good afternoon, Chairman Porter, Ranking Member Davis and 
members of the subcommittee. Thank you for this opportunity to 
discuss TSA's role in enhancing aviation security. I will focus 
my remarks today on TSA's role in vetting workers at our 
Nation's airports and controlling access to secured areas of 
the airport.
    As you know, there are numerous independent layers of 
security aimed at protecting America's transportation systems, 
and in particular our aviation system. These include 
intelligence gathering and analysis, checking passenger 
manifests against watch lists, physical screening of passenger 
and carry-on bags and checked baggage, the presence of Federal 
air marshals, TSA-authorized Federal flight deck officers, 
reinforced cockpit doors, and systems for vetting TSA 
employees, airline employees, and airport workers who have 
access to the secure areas of our airports.
    All TSA Transportation Security Officers undergo a 
comprehensive two-part background investigation process. The 
first is the pre-employment background investigation that is 
conducted by OPM, and includes a fingerprint-based criminal 
history records check processed through the FBI, as well as a 
name-based check by TSA against approximately 10 different 
terrorism wants and warrants and immigration data bases. If 
pre-employment screening is favorable, further background 
checks are conducted through OPM's Access National Agency Check 
with Inquiries. The TSO is permitted to begin employment while 
the second interview is under way. This vetting of TSOs is the 
equivalent of the secret level clearance check.
    Non-Federal employees and contractors who seek employment 
at our Nation's airports are also subject to vetting. They too 
are the subject of an FBI fingerprint-based criminal history 
records check prior to employment. Simultaneous with the FBI's 
check, TSA conducts the first of what will be a perpetual name-
based security threat assessment of the name against its 
terrorist and other data bases. Any name that is a possible 
match to a data base is referred to appropriate law enforcement 
or intelligence agencies to determine whether the individual's 
identity can be verified and whether the individual poses a 
threat to aviation. TSA informs airlines or airports if an 
individual's access to secure areas must be denied or 
rescinded.
    Generally, in order to access sterile secured areas, anyone 
who has not been issued a SIDA badge for a particular airport, 
including airport and airline personnel, vendors and 
contractors, and even other TSA employees, must pass through a 
TSA security screening checkpoint and submit to the same 
physical screening process that passengers must pass through 
before boarding an aircraft.
    Airport operators are responsible for developing and 
implementing TSA-approved airport security programs and 
procedures and processes to control the sterile, secure and 
SIDA access areas. These programs include badging, a challenge 
program, and a compliance regimen. All entrances must be 
secured, which is generally accomplished by guards by 
electronically controlled locks. Nearly 1,000 TSA aviation 
security inspectors ensure that airports and air carriers 
comply with the regulatory requirements.
    Mr. Chairman, each of the many aviation security layers we 
have in place is by itself capable of stopping a terrorist 
attack. We recognize that despite our efforts to make each one 
as strong as we can, it is still possible to devise ways to 
beat any one of the individual layers. But there is a 
tremendous power in layers. Truly, the whole is greater than 
the sum of the parts, and together they are formidable.
    Today we are in a transition point at TSA. We are moving 
from a startup mode. Large-scale acquisitions and centralized 
hiring and rigid standardized operating procedures were 
required to quickly stand up the agency to becoming a more 
dynamic, flexible agency that can respond to changing 
conditions and threats. By building unpredictability into our 
screening and oversight operations, deploying new technology as 
it becomes available, and utilizing all of our resources more 
flexibly, we can continue to improve the formidable system of 
layered security that now exists.
    Thank you again for the opportunity to testify, and I would 
be happy to respond to your questions.
    [The prepared statement of Mr. Jamison follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.048
    
    [GRAPHIC] [TIFF OMITTED] T9848.049
    
    [GRAPHIC] [TIFF OMITTED] T9848.050
    
    [GRAPHIC] [TIFF OMITTED] T9848.051
    
    [GRAPHIC] [TIFF OMITTED] T9848.052
    
    Mr. Porter. Thank you very much. I would like to also 
recognize that the Customs and Border Protection were not able 
to be with us today, but they are submitting information and a 
statement for the record.
    I would next like to introduce Kathy Dillaman, Deputy 
Associate Director, Center for Federal Investigative Services, 
Office of Personnel Management. Welcome, Kathy.

                  STATEMENT OF KATHY DILLAMAN

    Mr. Dillaman. Mr. Chairman, Congressman Davis, thank you 
for the opportunity to testify before you today on the process 
used by the Office of Personnel Management to conduct 
background investigations for personnel at the Transportation 
Security Administration. OPM's mission is to ensure the Federal 
Government has an effective civilian work force. Having an 
effective work force means having a work force made up of 
people with varying degrees of responsibility, therefore 
requiring varying degrees of background investigations to 
ensure they meet the Government's suitability requirements.
    At OPM we are responsible for investigating every type of 
position in the Government, from low-risk public trust 
positions like mail clerks and customer service reps, to high-
risk public trust or national security positions like auditors, 
nuclear material handlers, and baggage screeners.
    At OPM, the division responsible for handling these cases 
is our Federal Investigative Services Division, headquartered 
in Boyers, PA. This division supports hundred of Federal agency 
security offices worldwide. Its automated processing systems 
and vast network of field investigators handle a high-volume of 
investigations. In fact, we processed 1.4 million 
investigations last year.
    In the last few years, as investigations have become an 
even more significant aspect of our mission, the number of OPM 
employees and contractors working on them has risen 
dramatically. In 2005, the Department of Defense transferred 
responsibility for its personnel security investigations 
program, including 1,800 investigative staff, from DOD to OPM. 
This move consolidated the vast majority of background 
investigations for the Federal Government with OPM. OPM 
conducts investigations for TSA on Federal and contract airport 
screeners. In conducting background investigations on these 
positions, we work closely with TSA personnel.
    On the other hand, TSA conducts background checks for 
specific categories of workers, including those needing 
unescorted access to what is referred to as the Security 
Identification Display Area of an airport. Currently, TSA 
submits fingerprints to OPM for airport screener applicants, as 
an initial screening tool prior to the initiation of the full 
background investigation. TSA then request that OPM conduct the 
Access National Agency Check and Inquiries investigation on the 
airport screeners. This type of investigation includes a search 
of national record repositories, such as the FBI fingerprint 
and investigative records, and DOD's investigative index, a 
credit check, a search of military records, birth verification, 
and a check of Immigration and Naturalization records when 
appropriate.
    Additionally, OPM sends letters of inquiries to employers, 
local police departments, schools and personal references to 
confirm the subject's background claims, and to obtain 
information about their basic suitability for employment. Field 
investigators are sent to conduct local criminal history 
inspections of the subject if no response is received to the 
written inquiries from police departments where the subject 
lived, worked or went to school.
    Between 2003 and 2006, OPM scheduled over 76,000 ANACI 
investigations on airport screeners, of which over 1,700 were 
closed with major issues, and were referred to TSA for 
adjudication.
    As part of the Government's effort to secure our Nation, 
the Office of Personnel Management's role is critical. We take 
this responsibility seriously, and are committed to ensuring 
the Federal Government has an effective work force.
    Mr. Chairman, this concludes my remarks. I am happy to 
answer any questions you or other members of the committee may 
have.
    [The prepared statement of Ms. Dillaman follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.053
    
    [GRAPHIC] [TIFF OMITTED] T9848.054
    
    [GRAPHIC] [TIFF OMITTED] T9848.055
    
    Mr. Porter. Thank you very much.
    Next, I would like to introduce Dawn Lucini, who is from 
McCarran International, actually from southern Maryland 
originally, now with McCarran International in Las Vegas. 
Again, Dawn, I appreciate you being here, and to Jose and the 
staff of McCarran. We appreciate what you are doing, so 
welcome.

                  STATEMENT OF DAWN E. LUCINI

    Ms. Lucini. Thank you, Mr. Chairman, and thank you for the 
opportunity to share with the subcommittee the views of the 
Clark County Department of Aviation, owner and operator of the 
Las Vegas McCarran International Airport, on how we are 
managing security while ensuring travel and tourism. Today, I 
will focus on procedures in place for employee background 
checks, including TSA requirements and how the Department 
interacts with Federal agencies charged with airport security 
oversight.
    Please accept our appreciation to you, Chairman Porter, and 
to the subcommittee for the continued attention Congress is 
devoting to aviation security.
    The role of the airport operator is critical to ensuring 
the safety and security of the national civil aviation system, 
while also ensuring that tourism and commerce is not impeded. 
In 2005, as the chairman mentioned, McCarran International 
Airport was the gateway to Las Vegas for over 44 million 
passengers, and we are on track to exceed that number in 2006. 
Currently, we are the fifth busiest U.S. airport by passenger 
volume. Las Vegas processes more passengers through security 
checkpoints than any other airport in the Nation except for Los 
Angeles.
    As the Airport Security Administrator, I am responsible for 
ensuring the security and safety of the passengers, employees 
and the physical structure which is McCarran. As such, the 
Department must conduct criminal history records checks for all 
individuals prior to their commencing work at McCarran. As of 
today, we have over 18,000 individuals who have successfully 
passed these background checks. The individuals are employees 
of the Department of Aviation, airlines, ground handlers, 
concessionaires, food purveyors and many Federal agencies, 
including the TSA, U.S. Customs and Border Protection, the 
Federal Aviation Administration, the FBI, the U.S. Secret 
Service and the U.S. Postal Service.
    The TSA is responsible for ensuring that all U.S. 
commercial airports are in compliance with security 
regulations. These regulations clearly outline airport and 
airport user requirements for conducting criminal history 
record checks for all individuals seeking unescorted access 
within Security Identification Display Areas, commonly referred 
to as the SIDA at all airports. All individuals must undergo 
fingerprint base checks to identify whether or not they have 
committed one or more of the 37 disqualifying crimes listed 
within the regulation. Airport employees collect the 
fingerprints while the FBI compares the prints to its extensive 
data base, and OPM then transmits the results back to the 
airport.
    If an individual is found to have been convicted of a 
disqualifying crime, the individual must provide the airport 
with proof of adjudication. If the individual cannot comply, 
she will not be granted unescorted access authority. In 
addition, airport employees, like passengers, are regularly 
vetted against the TSA watch list. If an employee name is 
matched, the Department of Aviation works in coordination with 
Las Vegas Metropolitan Police Department, METRO, the TSA and 
the FBI to remove the individual from the facility and allow 
the Federal agencies to take appropriate actions.
    The subcommittee should appreciate that the procedures 
outlined above are the minimum TSA requirements. Beyond the 
Federal regulation, airports may have additional local and 
State regulations to which they must adhere, or may voluntarily 
establish additional employee vetting processes. The Department 
of Aviation first requires individuals to submit to a local 
traffic wants and warrants check and a check for the National 
NCIC data base. As employee badges expire and must be renewed, 
we again require individuals to submit to these checks. These 
processes promote the Department's philosophy, which is a 
layered approach to ensuring the integrity of our security 
program. Further, even if an individual is not seeking 
employment within McCarran's SIDA or sterile areas, rather only 
public areas, the Department still requires them to undergo the 
same fingerprint based criminal history records check.
    At McCarran, we understand that we are an entry point into 
the national civil aviation system, while also a first line of 
defense. Accordingly, TSA readily approves our security 
policies and procedures, as they are developed in concert with 
our acting TSA Federal Security Director, Mr. Jose Ralls, and 
his staff.
    The Department of Aviation does not act alone in promoting 
aviation security at McCarran. We do so in the spirit of 
communication, coordination and cooperation with the TSA and 
METRO. The key is, when it comes to security, none of the local 
parties acts alone. All decisions are made collectively and no 
protocols are implemented prior to all parties being consulted, 
thereby leading to consensus.
    While the Department knows what options and plans are most 
effective for McCarran's users and facilities, enough attention 
cannot be paid to how critical the local security and law 
enforcement relationship is between the parties.
    Mr. Chairman, in the almost 5 years after September 11, 
2001, we have seen significant improvements to aviation 
security. We should not forget that aviation security is a 
matter of national security, and that individuals, businesses, 
local and State governments, and the Federal Government, must 
all continue to work in partnership to protect our citizens and 
visitors from acts of terrorism.
    Again, we appreciate the leadership of this subcommittee 
and the opportunity to testify today. Thank you.
    [The prepared statement of Ms. Lucini follows:]

    [GRAPHIC] [TIFF OMITTED] T9848.056
    
    [GRAPHIC] [TIFF OMITTED] T9848.057
    
    [GRAPHIC] [TIFF OMITTED] T9848.058
    
    Mr. Porter. Thank you, Dawn, but you forgot something. What 
happens in Vegas stays in Vegas. [Laughter.]
    You just shared a lot of successes that we weren't supposed 
to tell anybody about, right?
    Ms. Lucini. We like to brag about those types of things, 
sir.
    Mr. Porter. As you should. Thank you very much.
    Ms. Lucini. Thank you.
    Mr. Porter. I would like to spend a little bit of time, 
Cathleen, with you for a moment. First, in reading the report, 
page 28, referring to background checks, I thought I heard most 
everyone say this afternoon that we are checking everyone. But 
according to your report, we are really not. Can you talk about 
that a little bit?
    Ms. Berrick. Right. The Aviation and Transportation 
Security Act requires all airport workers to undergo a 
background investigation. When we did our work--and it was done 
at the end of 2004--we found that workers that had escorted 
access into the restricted or the SIDA airport areas, the 
secure airport areas, were not undergoing a background 
investigation. Now, mind you, they were being escorted by 
persons that had those badges and had the background 
investigations conducted, but that was a requirement of the 
Aviation and Transportation Security Act that wasn't being 
implemented. I am not certain whether or not that is still the 
case today. Maybe we could get an update, but that is what we 
identified in our work.
    Mr. Porter. So the individuals that have access without a 
background check are having someone with them. Can you give me 
an example of what that would be?
    Ms. Berrick. Right. It would be, for example, a 
construction worker that's doing some construction in the 
secure airport areas that would have an airport employee that 
had undergone the background investigation, would escort them 
back to that area, and would be with them while they performed 
their construction work, would be an example.
    Mr. Porter. You also mentioned some perimeter problems. Can 
you talk about that a little bit more specifically?
    Ms. Berrick. When we had done the work, and still today, 
TSA had paid a lot of attention to passenger and checked 
baggage screening, and to a lesser degree they were focused on 
airport perimeter security and access controls. And since then 
they have taken a lot of action. They had done some 
vulnerability assessments of airport perimeters and access 
controls. They hadn't completed all of them when we had done 
our work. They also had started doing inspections of airport 
security programs to make sure airports were complying with 
security requirements since TSA oversees that process.
    We also found that TSA was doing covert testing of airport 
perimeter security in restricted areas. For example, they would 
go through a door into a secure airport area and see if they 
were challenged if they didn't have a badge.
    So essentially, our message was that they were starting to 
take actions in all these areas, but had previously been 
focused on passenger and baggage screening due to many 
congressional mandates related to hiring a Federal work force 
and deploying explosive detection equipment, but they had taken 
action, and since then have taken more action to secure those 
areas.
    Mr. Porter. You had also pointed out some areas with 
inspecting cargo.
    Ms. Berrick. Right. We had issued a report in October 2005 
on TSA's role in overseeing our cargo security, and again, the 
air carriers and the freight forwarders, the organizations that 
transport cargo to the airport to load onto the aircraft have 
direct operational responsibility for securing cargo. TSA 
oversees that process.
    Essentially what we found was that TSA was doing 
inspections of these air carriers and freight forwarders, but 
they weren't really using the results of those inspections to 
identify where the weaknesses were in order to target future 
inspections. They had difficulty identifying to us all the 
different air carriers and freight forwarders that they had 
inspected, and mind you, there's thousands of freight 
forwarders.
    We also found that TSA had established exemptions. First of 
all, they established a random inspection program for air cargo 
because they have the position that it is not feasible to 
inspect 100 percent of air cargo because it would impede the 
flow of commerce, and also the technology wasn't where it needs 
to be. So they established a random inspection program. They 
did identify some exemptions of cargo that could go 
uninspected. The problem that we identified with that was that 
a lot of shippers knew what those exemptions were, so they 
would package their cargo in a manner that would bypass 
inspection.
    So one of the related recommendations we made in the report 
were that TSA reevaluate these exemptions that they created to 
see to what extent they created security weaknesses, and TSA 
agreed with that recommendation.
    We had also recommended, related to TSA's inspection 
program, that they use the results of their inspections to 
target areas that should require greater scrutiny, and TSA also 
agreed with that.
    Mr. Porter. And back again to screening of employees. I 
think you noted in the report that some vendors are not being 
checked. TSA has not addressed the provision that calls for the 
agency to require the airport vendors with direct access to the 
airfield--so a vendor, to me, would be a McDonald's or some 
business or other folks other than just construction workers. 
So what the report is saying is not just construction workers, 
there are vendors that are not being checked that are there on 
a daily basis?
    Ms. Berrick. Right. There's really two restricted areas of 
the airports that we're talking about. One is the sterile area 
which is behind the checkpoint inside the airport, and the 
other is the secure area which is out by the aircraft. There 
are about 900,000 workers that have access to the secure area, 
and about 100,000 that have access to the sterile area within 
the airport.
    TSA physically screens those vendors and other employees 
that are going into the sterile area of the airport. They would 
go through the checkpoint just as passengers would do. They are 
not physically screening those workers that go into the secure 
airport area, those 900,000 workers. TSA's rationale is that 
they are conducting background investigations on these 
employees that have unescorted access. If someone is going back 
there that has escorted access, they're being escorted by 
someone who has undergone a background check.
    An impediment that TSA has identified related to physically 
screening all those workers is the time and resources that 
would be required to do that. And then also some of these 
workers are carrying tools and instruments that would set off 
an alarm and make it difficult to physically screen them. So 
those people aren't physically screened, but again, they're 
getting background investigations----
    Mr. Porter. Excuse me a second. So if you work at a food 
vendor through the security gate, is there a background check 
done on a food vendor or a bookstore employee?
    Ms. Berrick. Yes, they do.
    Mr. Porter. And if they are outside of that area?
    Ms. Berrick. The employees and the vendors that work in the 
sterile airport area, which is inside the airport past the 
checkpoint, undergo a background investigation. They are also 
physically screened through the checkpoint.
    Mr. Porter. So it is two fold. Every day they are screened, 
but also the background check is done.
    Ms. Berrick. That's correct.
    Mr. Porter. I have some more questions.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Ms. Berrick, does TSA have sufficient resources to staff 
all of the checkpoints in our airports?
    Ms. Berrick. As you know, there's a congressionally 
mandated cap of 45,000 screeners, and I believe TSA has about 
42,000 right now. TSA has had some challenges with hiring and 
retaining screeners, and especially a part-time screener or 
Transportation Security Officer work force. Their attrition 
rate right now overall is about 23 percent for Transportation 
Security Officers. It's about 50 percent for part-time 
Transportation Security Officers, so it's been difficult. Part 
of that has to do with circumstance. It's difficult to attract 
a part-time work force because of the pay and the benefits and 
the hours.
    TSA is doing things to improve that. For example, when TSA 
first hired over 50,000 Transportation Security Officers, they 
had a very centralized hiring process that wasn't real 
responsive, to bring people on quickly when they were needed, 
and that was done because they had to hire a lot of workers in 
a short amount of time.
    Since that time, TSA has given a lot of more flexibility to 
the airports related to hiring. They've created regional hiring 
centers, so in the past where Federal Security Directors have 
complained a lot about not being able to bring people on 
quickly, TSA is making some changes to address those issues, 
but TSA is still having the challenge of retaining people.
    I'll also say that TSA recently--well, about a year ago, 
developed a model to try to determine the appropriate 
allocations among the airports, to make sure that they're 
staffing appropriately. We have an ongoing review right now 
that's looking at the assumptions that are used in that model.
    Mr. Davis of Illinois. Do you think that training is 
associated with some of the attrition problems that TSA is 
experiencing?
    Ms. Berrick. TSA has significantly increased the amount of 
training that it gives screeners. The problem that we have 
identified--and it is almost a cause from some of the attrition 
problems, is with screeners. Federal security directors are 
identifying that screeners or transportation security officers 
don't have the time available to take the screening that is 
required, because they are busy manning the checkpoints. We 
surveyed about 263 airports, and about half of the Federal 
Security Directors at those airports were saying basically that 
their Transportation Security Officers didn't have enough time 
within a regular work day to take training. So it's really 
another cause when you don't have adequate numbers, potentially 
don't have adequate numbers at the checkpoints, training could 
suffer as a result of that.
    Mr. Davis of Illinois. So the training is being improved. 
Would you say that they are being trained and certified in the 
latest technologies?
    Ms. Berrick. I think--and I'm sure TSA can speak to this as 
well. I think their training program is very robust. They just 
completed a really intensive explosive training where they went 
out and trained over 20,000 Transportation Security Officers on 
different components of explosives to learn to detect those. 
And I do think it is robust to have a basic screener training 
program of 40 hours classroom, 60 hours on-the-job training. 
They have a recurrent training requirement of 3 hours a week 
averaged over a quarter. They also have a remedial training 
program. If a screener fails a covert test, they are required 
to go through remedial training, and they have so many attempts 
to pass that. So I would say the training is pretty rigorous.
    TSA also has an online learning center where they offer 
online courses for Transportation Security Officers to take. 
There is a problem with that in that not all airports have 
high-speed Internet connectivity, but that is a resource that 
TSA provides the work force.
    Mr. Davis of Illinois. How do the performance of Federal 
screeners compare with those of private screeners?
    Ms. Berrick. We did an analysis of TSA's covert testing 
data. TSA has an office that does inspections of checkpoints to 
see to what extent they can get prohibited items through. And 
we looked at the period from June 2002 to June 2004, and what I 
can say in a public forum is that they identified witnesses at 
airports of all sizes and all locations and airports with 
Federal and private sector screeners.
    I will say that we found a slight difference. Airports that 
had private sector screeners performed slightly better on these 
covert testing results, but I would caution that is really just 
an indicator of performance, and it really can't be used to 
draw overall conclusions about which work force is performing 
better, but the test results were slightly better.
    Mr. Davis of Illinois. Were the sizes of the airports 
compared essentially the same?
    Ms. Berrick. There are five airports that have private 
sector screeners, and they're at the different category level, 
so it's a much smaller universe that have private sector 
screeners and that's one of the weakness of the comparison. But 
there is, for example, San Francisco is a Category X large 
airport that has private sector screeners, so there's one large 
Category X airport that's included there.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Porter. I would like to talk about the foreign 
management, whether by private companies or by government owned 
companies. Mr. Jamison, do you know how many of our airports 
are managed either by private investment or a foreign 
government?
    Mr. Jamison. It's well less than 1 percent. We have seven 
airports that have some form of foreign ownership overseeing 
some of the operations, but there's only one large airport, one 
Cat 1 airport that has that, the overall operations managed by 
a foreign entity.
    Mr. Porter. I know the Clark County aviation system, and it 
is operated by the county and a board of directors. These other 
airports, the seven or more that you are talking about, are 
their contracts then with local government or with the Federal 
Government? Who do they contract with?
    Mr. Jamison. They are contracted with the airport owner.
    Mr. Porter. The airport owner.
    Mr. Jamison. The airport owner in most cases, or they 
subcontract to another company that's managing the airport.
    Mr. Porter. What about the background checks of these 
individuals that are foreign owned; how are they handled?
    Mr. Jamison. They're actually regulated and treated the 
same way as all other airport operators, so all of their 
employees that have access to the secured area or have any 
control in issuing that access have to go through the same 
vetting process from a background check standpoint as well as a 
criminal history records check and being bounced up against 
terrorist data base.
    Mr. Porter. If they are an employee, then they follow the 
same steps is what you are saying.
    Mr. Jamison. Exactly.
    Mr. Porter. So of the seven, are any owned by the 
governments themselves or are they all private?
    Mr. Jamison. I believe they're all private. I believe 
they're all large European companies for the most part.
    Mr. Porter. When it comes to airports--I know there are 
thousands of them around the country and many are not under the 
control of TSA or the Federal Government--is it based upon 
receiving Federal funds whether there is TSA or DHS oversight, 
or how does that work?
    Mr. Jamison. Actually, it's not based off the TSA fund. We 
have the ability to so-called Federalize an airport and 
determine whether or not there will be Federal screening 
regulations put in place, and whether or not it will have a 
Federal screening work force or under TSA purview. And that's 
largely decided based off risk and the size of the airport. So 
some smaller airports that have very, very few flights may not 
have Federal screeners or be under TSA controls.
    Mr. Porter. So if you had an airport in the middle of Iowa 
or middle of Nevada that may not have been inventoried by the 
Federal Government and may be operating without any type of 
controls, correct?
    Mr. Jamison. Well, they have the controls of the general 
aviation controls and the recommendations of the guidelines and 
the rules that are in place for general aviation, but we 
constantly do a risk assessment, evaluate which airport that we 
bring into that process, and before they can enter into the 
other aviation system, they have to undergo certain 
requirements. So if they're flying to another airport that 
enters into the Federal system, they would have to go through 
screening and have all the passengers rescreened prior to 
entering that airport instead of making their connection to 
another flight.
    Mr. Porter. I guess this is more a question for Dawn. 
Again, McCarran is an airport that I know well. I spend every 
weekend at McCarran, and I think that as a rule that it 
basically knows its customer base very well, and that's, I 
think, been part of the success for McCarran working with TSA. 
We know when people are going to arrive, and we know who they 
are, because we do a lot of those market surveys. But also 
having traveled, again, through airports every weekend, every 
airport does things a little bit differently. Is there some 
advice that you would give these other airports to help 
streamline their process?
    Ms. Lucini. I would, again, advocate what I provided in my 
testimony earlier. It's really about local cooperation. The 
success we've enjoyed has been done with the TSA and the METRO. 
Again, we are completely dependent on the tourism industry in 
Las vegas, so we have made every effort to assist the TSA in 
the security process. We are one of nine letter-of-intent 
airports in the country to provide our airport with an in-line 
EDS screening solution, which will create greater efficiencies 
for the TSA in baggage screening. In addition, at the screening 
checkpoint we have hired contractors--they're called 
divestors--that help the passengers at the front of the 
checkpoint prior to going through the screening process, to 
speed up, expedite that process and keep the queues moving 
through when we have those large shows that you mentioned 
earlier.
    It's really local partnership. Every airport is unique, and 
you probably heard that many times. It's incumbent upon the 
local entities to work together to decide what will work best 
for that airport.
    Mr. Porter. You know, there are those that say the economy 
is not thriving, but airports would be an example that the 
economy is coming back stronger than ever. Every airport that I 
have been through is at capacity. What is it that Las Vegas--
you mentioned the partnership--what are some of the specific 
things that they have done in guiding the movement of tourists 
through the airport?
    Ms. Lucini. Well, again, we have put together a pre-
screening series we call TIPS, which are video montages, if you 
will, that help passengers get ready for the screening process 
prior to entering the checkpoint. The foundation of that was 
laid before I arrived. I believe Mr. Blair, who's with us 
today, was key to that as well, in partnership with our 
director and deputy director of the airport, and we worked with 
the local convention authority to produce those videos to help 
passengers prepare.
    Mr. Porter. If I may interrupt, for the audience, share 
what some of those are.
    Ms. Lucini. Well, for example, we'll have Carrot Top, the 
comedian, go through with the oversize bag through the 
magnetometer, and he falls backward, too heavy of a bag and 
it's oversize, can't get through. We have a lot of travelers 
that don't fly but once a year, and that's to Las Vegas and out 
of Las Vegas, and they like to go shopping. So that's one 
example, and we also have some other local celebrities that 
give key travel tips, you know, don't wrap your gifts at the 
holiday season and bring them through the checkpoints, just to 
make it a smoother process for everybody.
    Another thing that also helps is, as you know, today before 
our system goes in-line for our EDS baggage screening system, 
the EDS machines are currently in front of the ticketing 
counters. Something that we've worked to expand in recent years 
are the use of self-serve kiosks. It's a common use platform so 
you can go to one of these kiosks, and all of our airlines are 
currently on that kiosk, and if you're not checking baggage you 
can use that kiosk. And it's not in the ticketing counter, it's 
up at the checkpoint level throughout the facility, so it 
reduces those queues so we don't have long lines out to the 
departures curb, the arrivals curb, and we really help with 
crowd control and keep the flow through the airport so we 
protect everybody, because there are security concerns in front 
of the checkpoint as well as beyond.
    Mr. Porter. What would the average wait time be at McCarran 
to get through security?
    Ms. Lucini. The average wait time, well, we can go from, 
you know, 5 minutes depending if you're at one checkpoint, and 
we like to at our busiest times to say you're going to get 
through in around 15 minutes. We always hope for 10 minutes, 
but we work very well with the TSA--we know that there's a long 
line at ticketing, and we call the TSA and they make best 
efforts to open additional lanes to get through. So we know 
when those big shows and conventions are coming, and the 
Department of Aviation actually brings on staff to help with 
crowd control and line monitoring, plus our divestors, and the 
TSA will reallocate their shifts and the staffing per shift to 
accommodate those crowds when we know they're coming.
    And we provide monthly the list of conventions and shows 
coming so we're all planned and staffed accordingly in advance.
    Mr. Porter. I recall one time that McCarran was considering 
designing your own baskets for travelers to put items in a 
basket. Are you still working on that?
    Ms. Lucini. That may have been the case, sir, that was 
before I came to McCarran, which was in June of last year. I 
think right now we are pleased overall with the current system, 
but we refine it as necessary and from time to time.
    Mr. Porter. Thank you for letting me put you on the spot.
    Ms. Lucini. That's OK.
    Mr. Porter. Congresswoman, comments?
    Ms. Schmidt. I have first a question regarding going 
through security. In the case of women sometimes, we are 
wearing apparel that doesn't allow us to take off our jackets, 
and yet sometimes they are very insistent that we do take off 
our jackets, and put us into a holding place for a more 
intensive search. What is the importance of having to take--I 
mean, for instance, I could not take off this jacket to go 
through a metal detector. What is the importance of that? 
Shouldn't the metal detector pick up anything that would be 
suspicious on us?
    Ms. Lucini. I've enjoyed that same experience myself, and 
I'll ask Mr. Jamison to answer that question.
    Mr. Jamison. Sure, I'll be happy to reply. It is an SOP put 
in place strictly for detection of explosives, so it's another 
layer of security to make sure you're not concealing something 
on your body that is not detectible through the metal detector 
that might be an explosive.
    Ms. Schmidt. May I have a followup? The problem is that I 
could have something under my blouse as well. I think that--I 
am not talking a coat. I am talking the outfit that I am 
wearing now, and if I were to have flown in today I would not 
have worn this outfit because I couldn't have taken the jacket 
off. All I am saying is I think you need to look at your 
guidelines a little bit more as to appropriate apparel and the 
robing and disrobing for individuals.
    Mr. Jamison. I absolutely agree with you, and, actually, we 
are undergoing currently an SOP review, that whereas we can 
give better direction to our TSOs to--given a situation just as 
you described, where it's not one-size-fits-all that you have 
to take off every outer garment, and that really, the intent is 
to try to get the detection of explosives. In those cases where 
you don't need to remove the garment to do that, we may be able 
to implement different standard operating practices. So we're 
looking at that very carefully, and hope to roll something out 
very quickly.
    Ms. Schmidt. Thank you.
    Mr. Porter. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Jamison, once a screener has been hired, how long does 
the training process take?
    Mr. Jamison. Depending on where they're going to work, it 
varies in length of time. They have about 50 hours of training, 
general training. Then they get specific training in either the 
checkpoint or the baggage area or both, and the training varies 
depending on where you're at between, I think, a total of 120 
hours to 200 hours.
    Mr. Davis of Illinois. The cost for the training would be 
about what?
    Mr. Jamison. I don't have that figure. I'd be happy to get 
it back to you per employee for the record. I don't have the 
exact figure for that.
    Mr. Davis of Illinois. There has been concerns over the 
sufficiency of our airport security systems, and some people 
think that they would lead to the Federalization of airport 
screeners. What assurances do we have that a return to private 
screeners will provide any increase safety or better security?
    Mr. Jamison. I agree with Ms. Berrick's testimony earlier 
about it's sort of hard to draw conclusions between those two. 
However, I think it's very important from us as the TSA 
management standpoint to look at both the privatized screening 
work force, as well as the Federalized screening work force and 
look at best practices to pull out to improve the overall level 
of screening. The mission is the same whether or not it's 
public or private, is to provide world class security to the 
aviation system, and that's what we're about.
    Mr. Davis of Illinois. Ms. Dillaman, when we do background 
checks, what are we looking for?
    Ms. Dillaman. You're looking for record information about 
the individual's conduct or other elements that might make the 
individual susceptible to blackmail, coercion.
    Mr. Davis of Illinois. Of course, criminal background would 
be a part of that. What other kinds of things besides----
    Ms. Dillaman. Criminal background? Violent disruptive 
behavior, issues of extended debt that might make the 
individual susceptible to coercion, fraud in the qualifications 
process.
    Mr. Davis of Illinois. Do we have information or data 
relative to what percentage of the people who apply get 
screened out or who don't pass the background check?
    Ms. Dillaman. OPM has information in terms of how many of 
the investigations develop issue information for consideration. 
But the actual screening out of the applicant is done by TSA, 
and so they would be in a better position to report on how many 
individuals fail because of the background check. But I can 
tell you that, for example, approximately 11 percent of those 
we screened have criminal history records at the FBI.
    Mr. Davis of Illinois. Mr. Jamison, do you have any 
further----
    Mr. Jamison. No, that's why I want to put the focus on what 
we've done to improve that, that process. So over the last 
year, in addition to the process that we go through for FBI 
checks and the OPM checks for employment, we have put in place 
the ability to perpetuate that data base against terrorist 
watch lists and other types of data bases, so we are getting a 
consistent perpetual vetting process of all our employees plus 
employees that have access to the SIDA.
    We also put in place improved processes where we're 
periodically going back and doing a fingerprint-based criminal 
history records check on our TSO employees.
    Mr. Davis of Illinois. Ms. Lucini, would you say that the 
best practices that you all have been able to develop could 
just about fit any normalized airport?
    Ms. Lucini. I hate to say the cliche, sir, that every 
airport is unique, but as a baseline the partnership and that 
relationship you develop will allow improvements in your 
procedures and processes at the airport. So there's a lot of 
best practices we've established that we gladly share with our 
fellow airports across the country. And some of them have 
adopted it with great success, others have tweaked it a bit and 
it's worked better for them that way.
    Mr. Davis of Illinois. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Porter. I have a question about the high speed Internet 
connectivity at some airports. What is the problem? That seems 
like something we could resolve fairly easily. Is it a cost 
factor, or what is the problem?
    Mr. Jamison. There's been numerous problems. I think budget 
is just one of them, the capability of the contractors and 
others. But I agree with you, it's been a long time coming, but 
I can tell you we're on course to have every airport with Hi-
SOC capability and high-speed Internet capability by the end of 
the year.
    We're also making sure that we strive to give the 
capability for extending the online training center 
opportunities. It's web-based and you can get to that online 
training center. It's very important for us to get the Hi-SOC 
to all of the airports, because it not only gives us capability 
for training, but also gives us ability to pull information 
back into our national data bases.
    Mr. Porter. I would just think that airports would have 
some of the latest technology available if they are of the size 
that you are referring to that would need TSA. I am amazed that 
it is not available. It sounds to me like it hasn't been a 
priority but it needs to be. So you think by the end of the 
year?
    Mr. Jamison. By the end of the year----
    Mr. Porter. Of this year?
    Mr. Jamison. By the end of this year, quite hopefully by 
the end of this fiscal year, we're going to have--I know we're 
going to have the majority of airports, if not all of them, 
done. It is a priority. There's a lot of issues of making sure 
that system is secure and they have enough protocols that you 
need to put it in place, were some of the challenges, but we're 
addressing those, and I agree with you it's a top priority.
    Mr. Porter. Because I understand that even checking 
passports and visa can be a problem because of the lack of 
technology and transmitting information back and forth, so I 
will look forward to that being corrected.
    With workers compensation, and I don't remember the 
numbers, but we were having a number of employees that were 
turning in workers compensation claims. What's happening there 
and what is the status?
    Mr. Jamison. We still have a very high claims rate. It has 
come down. We have put a lot of focus on this, establishing a 
war room effort in national headquarters to really address the 
injury issue. I feel like it's a combination of a lot of 
issues. It's a combination of work setup in some airports, it's 
a combination of training and accountability, but we've got 
focused programs everywhere from nurse care management to 
address people that are on workers compensation to get them 
back to work, to analyzing the worker setup, to looking at the 
training that we're doing and really trying to track the data 
and try to get that issue under control.
    It's a big issue for us, as Ms. Berrick pointed out, work 
force management, hiring, retention, huge issue. We know we got 
to get our work force stable. Injuries are a huge piece of 
that, and we've got a lot of focus on it.
    Mr. Porter. What percentage of your work force is out at 
one time on their workers compensation claim?
    Mr. Jamison. The number is highly variable depending on 
airport, and it's something that allows us to focus on that. I 
don't have the exact number. We would be happy to get it back 
for you for the record.
    Mr. Porter. Thank you. And then regarding the explosive 
detection systems and the explosive trace detection, baggage 
screening systems, which of course, improve safety, but also 
achieve some cost savings, and there are a lot of large 
airports that don't have plans. Is it because of the lack of 
space, lack of facilities? Why isn't it that a lot of airports 
are moving forward with that?
    Mr. Jamison. It's a combination of several things actually, 
and as my boss testified earlier today, it's like a complicated 
math problem, depending on the funding issues, but also the 
layout of the airports, whether or not they've got the space, 
the throughput of the machines that are available and the 
requirements. So there's a lot of things that go into that 
equation.
    We're scheduled this year in 2006 to deploy 116 EDSs, and 
we're scheduled to do 90 for 2007.
    Mr. Porter. OK, thank you.
    Mr. Van Hollen, do you have any questions or comments 
today?
    Mr. Van Hollen. Just a few questions, if I could, Mr. 
Chairman. And we have two hearings going on at the same time, 
so I apologize for being late.
    But I did have a question regarding the watch list process, 
and what mechanism someone can go through if their name is 
inadvertently put on the watch list. We heard a number of 
stories sometime ago about various individuals, and Senator 
Kennedy, I think, was detained, as was Congressman John Lewis. 
There have been a number of others, and the two I mentioned are 
people in positions of influence, and even they seemed to have 
some difficulty just going through the process of getting this 
name off this list for a period of time.
    We get people, who obviously, are not in that kind of 
position, and you can imagine what they feel they have to go 
through if they are wrongfully put on a list. What do you do if 
you are put on the list and there has been a mistake? What 
process do you go through? And has it been effective because my 
impression is, anyway, that we are still not at a place where 
there is a very clear mechanism for removing someone's name.
    Mr. Jamison. We do have a formal redress process, and you 
can access our redress office by an 800 number and/or the Web 
site, TSA Web site. The data will show you that we have made a 
lot of progress. While the size of the terrorist watch list is 
ramped up, the issues and redress issues are starting to come 
down, but it's a big focus of ours to make sure we clean up the 
list, and that we actively manage the list.
    TSA is in charge of managing the list. We're not really in 
charge of nominating the people that are on the list. It's a 
big focus for us, and secure flight implementation of 
automating that at a Federal level which we're moving forward 
rapidly with, will help alleviate a lot of the administration 
problems with it.
    Mr. Van Hollen. You, as you said, you sort of are 
responsible for keeping the list, but you don't put the people 
on the watch list, is that right?
    Mr. Jamison. That's correct.
    Mr. Van Hollen. So to get somebody off the watch list if 
they have been wrongfully put there, do you have to go back to 
the agency that put them on, is that right?
    Mr. Jamison. We request that the Terrorist Screening Center 
or the nominating agency that has put that on the list. And 
when we have issues or incidents where we think that there may 
be a problem with that, we frequently ask them whether or not 
the derogatory information that goes into that process is still 
valid and whether or not they should remain on the list.
    Mr. Van Hollen. Have the agencies been cooperating with you 
in that process?
    Mr. Jamison. They have, absolutely, absolutely, and the 
process gets better every day.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Mr. Porter. Congresswoman, additional questions?
    Ms. Schmidt. I believe this is to Mr. Jamison, and I 
apologize if I missed anything, but I had another meeting. In 
2004 TSA began to work on the Transportation Worker 
Identification Credential [TWIC], an identification card 
embedded with fingerprints or other biometric information to 
prevent unauthorized access to secured airport areas. The idea 
is that workers in airports, seaports, and other transportation 
sectors could use a single identification card to access secure 
areas. TWIC was originally conceived as a TSA-run program. 
However, reports I have received indicate that the TWIC program 
has encountered delays, and contract cost increases.
    My question is this: what are the next steps for the 
program? And I understand that TWIC is an entirely fee-funded 
enterprise this year and next. If this is correct, will this 
funding approach delay implementation? And finally, how soon 
can we expect it to be implemented? So a three-part question.
    Mr. Jamison. First of all, I agree TWIC has been too long 
in coming. We've got a committed focused effort for 
accelerating deployment of the Transportation Worker ID Card. 
We're currently approaching an accelerated parallel rulemaking 
program, a rulemaking with the Coast Guard and with TSA, which 
a primary component of it addresses your question and gives us 
the ability the charge fees in order to fund the program. We 
reached a milestone last week that shows you the commitment to 
accelerating this program. We put out a request for 
qualifications for contractors to help us deploy the long-term 
implementation for TWIC, and we anticipate there will be a lot 
more announcements, but we're committed to accelerating the 
deployment and getting out there as quickly as possible.
    Ms. Schmidt. Thank you.
    Mr. Davis of Illinois. Just one additional question, Mr. 
Chairman.
    Mr. Jamison, does TSA have any notion or idea or feel for 
how many airports might want to go private with screeners?
    Mr. Jamison. To answer your question, no, I don't have a 
formal survey, and I don't have an indication of that. There 
have been a few rumblings from the field that there's an 
interest in more airports moving to that model, but we have 
nothing formal in place, and that's really all we have.
    Mr. Berrick. If I could add, Mr. Davis, GAO has done work 
looking at a TSA screening partnership program where you have 
private sector screeners at airports. And we surveyed about 25 
airports and generally the interest doesn't seem to be out 
there at this point in time, based on the airports we spoke 
with, and they cited a couple of issues.
    One was they wanted to wait and see how this worked out for 
the airports that were using private screeners, kind of a wait 
and see attitude. Also, some of them identify concerns with 
liability, if there was a terrorist incident, how would that 
affect them.
    Now, the Department of Homeland Security is granting Safety 
Act coverage to immune contractors from liability and the 
appropriations law last year protects airports from liability, 
so I think airports are hoping that problem has been solved, 
but based on what we've heard it's basically they want to wait 
and see how it works out for the next year.
    Mr. Davis of Illinois. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Porter. Mr. Van Hollen, any additional questions?
    Mr. Van Hollen. I didn't know if anyone else had a comment 
on the watch list issue. I don't know if the GAO--I know it is 
not part of the scope of this report, but I know you have 
looked into it in the past.
    Mr. Berrick. Right. We have. We actually have an ongoing 
review looking at the quality--actually, a process for names 
getting on and off the watch list. As you know, the Department 
of Justice Inspector General had done a pretty comprehensive 
review of the Terrorist Screening Center and their watch list. 
We're going to be focusing more on the process for getting on 
and off. Also the redress process you were talking about, that 
work is going to be completed in August of this year. So we 
would be happy to brief you on that when that's completed.
    Mr. Van Hollen. Good, thank you.
    Mr. Porter. I am actually going to conclude with a couple 
of questions but first I have a little levity. When my 
colleague, Mr. Davis, mentioned going private, I have never 
seen so many heads turn and look at each partner sitting next 
to each other at one time. [Laughter.]
    It was kind of interesting. If you could see it from this 
angle, it was one of those moments that I talked about earlier, 
where there is a picture in time. Well, everyone kind of went--
[laughter]--you certainly asked a very good question and I 
appreciate you asking it.
    One of two final questions. Are you all satisfied with the 
inspection of our foreign partners that are managing our 
airports? Is there something else we should be doing? Do you 
feel confident that we are checking as much as we should in 
light of the current situation in the world? Is there something 
else we should be doing?
    Mr. Berrick. In terms of GAO, we haven't specifically 
looked at that issue, so I don't have anything to add to that.
    Mr. Jamison. I think from TSA's perspective, it's like all 
of the other issues that we need to constantly look at, we need 
to constantly evaluate the risk, and it's more of evaluating 
the risk across the different levels of security in the 
aviation system or at an airport, so evaluating SIDA access, 
evaluating perimeter security, continuing to look at the risk, 
continuing to provide unpredictability, and looking at the 
ownership and the operation and compliance of that is just one 
element of that we need to continue to look at.
    Mr. Porter. Is there anything else that we can do to 
empower you to do additional background if necessary; anything 
we can do to help you?
    Mr. Jamison. I think we have the authority that we need.
    Mr. Porter. OK. What do you think from McCarran's 
perspective?
    Ms. Lucini. Well, I had a list here of--I do have a list of 
entities on airport that are U.S. corporations, majority 
foreign owned, which I believe you have been provided with a 
copy of that list prior, Mr. Chairman.
    But they are, again, subject to the same employee 
background checks that I mentioned in my testimony, and again, 
there's been some references to perimeter security at McCarran. 
We are working locally with the TSA on regular assessments of 
our perimeter and our security program there. Locally we have 
decided the Department of Aviation specifically has decided to 
make some further enhancements to our infrastructure on our 
perimeter. So taking additional steps in advance of any 
mandates or requirements.
    And our current access control system, which is, you know, 
the badges are issued to the people that have successfully 
passed these background checks. We are going to be introducing 
biometrics into our access control system. It's probably going 
to be about 3 to 5 years from now, but the tentative foundation 
is now being laid for us to go forward with that program.
    Mr. Porter. Thank you. I firmly believe that we are safer 
today than we were yesterday, and that we are going to be safer 
tomorrow than we are today. I think we still have a long ways 
to go.
    But I would like to give you one last opportunity, I guess, 
as a subcommittee. Normally we ask you a lot of questions, but 
I would like to know if there are any other things that we 
should be doing as a Congress to help make our travelers safer. 
This is an opportunity if you have any thoughts for us, we will 
pass onto our colleagues. Anything you think in your 
investigation, Cathleen?
    Mr. Berrick. I think based on the work that GAO has done, I 
would just stress the importance of using risk-based 
decisionmaking, knowing that it's impossible to secure 
everything in commercial aviation, really stressing that TSA 
needs to consider threat vulnerability and consequence in 
making decisions, not just within aviation but across all modes 
of transportation for which they're responsible, and we've 
reported that TSA has done this to a great extent. We think 
there is room for further improvement in that area.
    Mr. Porter. Thank you.
    Ms. Dillaman.
    Ms. Dillaman. No, sir. I think OPM and TSA have an 
excellent relationship, and we've worked hard to develop a 
system that cross-checks and makes sure that people don't fall 
through the cracks.
    Mr. Porter. Mr. Jamison.
    Mr. Jamison. Actually, again, I would concur with Ms. 
Berrick, that I believe that--the focus on being risk-based. 
It's something that we're really trying to do, make all of our 
decisions based off of risk, and our prohibited items decisions 
have been driven by that.
    So continued recognition of that and focus on that is a 
huge issue for us at TSA, so we appreciate the committee's 
interest in that and cooperation.
    Mr. Porter. Anything else?
    Ms. Lucini. I echo Ms. Berrick's comments and add that TSA, 
from the headquarters level, I would promote that they continue 
even more local autonomy be given to the Federal Security 
Directors to work with the airport operator and other agencies 
locally to develop the best solution for that airport.
    Mr. Porter. Based upon the current structure of management, 
let's just say there was a crisis today at one of our airports 
or somewhere in the country. Is there a clear, defined 
management role of different agencies, who is in charge of 
what? We are comfortable with that?
    Ms. Lucini. Yes, sir. We have an airport security program, 
which is a requirement as we operate under a TSA regulation 
that clearly identifies procedures we take for our security 
program, as well as an airport emergency program, which is in 
compliance with the Federal Aviation Administration regulation, 
which also outlines a chain of command, if you will, incident 
command, and the other agencies we work with in the event of an 
emergency of security event.
    Mr. Porter. Mr. Jamison, you feel the same, that there is a 
clear and defined role for all of these agencies?
    Mr. Jamison. Well, I mean, there is, and I think that 
Federal Security Directors play a key role in the monitoring of 
compliance with that airport security plan, as you pointed out, 
and also plays a key role as a principal Federal official for 
transportation security at the local level, so coordination and 
making sure that everybody's involved and knows their roles and 
response is a key role that we probably take on.
    Mr. Porter. Ms. Dillaman.
    Ms. Dillaman. I believe our roles and responsibilities are 
clear. At the same time, I think we're flexible enough that 
should a new need arise, we can respond to it.
    Mr. Porter. Thank you. Ms. Berrick.
    Mr. Berrick. GAO actually did a study of this as well, 
Federal Security Directors' roles and authorities at airports. 
And we found that the partnerships were generally working very 
well despite some additional difficulties, and FSDs were doing 
a very good job establishing partnerships with key airport 
stakeholders including local law enforcement and the airport 
authority.
    We did identify one area for improvement, that TSA could 
help the process by clarifying the FSD's authority related to 
other stakeholders. We did hear from some airports that in the 
event of a security incident, sometimes there was confusion 
regarding the FSD's authority, and TSA agree with that 
recommendation and was making some changes to try to 
communicate that to stakeholders. But overall it was very 
positive in terms of the Federal Security Director's 
relationship with other airport stakeholders.
    Mr. Porter. Thank you.
    Any additional questions from the panel?
    [No response.]
    Mr. Porter. Appreciate you all being here today, and know 
that Members have additional questions possibly. They will 
submit them and will be entered for the record. I just want to 
make sure that when we wake up tomorrow that there is not a 
crisis someplace and it is something we have missed. So keep 
that in mind, and I know you do. But also I have learned that 
many of the best ideas come outside of the box, so don't 
hesitate to give us some ideas.
    Thank you all for being here, and we will adjourn the 
meeting.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9848.059

[GRAPHIC] [TIFF OMITTED] T9848.060

[GRAPHIC] [TIFF OMITTED] T9848.061

[GRAPHIC] [TIFF OMITTED] T9848.062

[GRAPHIC] [TIFF OMITTED] T9848.063

[GRAPHIC] [TIFF OMITTED] T9848.064

[GRAPHIC] [TIFF OMITTED] T9848.065

[GRAPHIC] [TIFF OMITTED] T9848.066

[GRAPHIC] [TIFF OMITTED] T9848.067

[GRAPHIC] [TIFF OMITTED] T9848.068

[GRAPHIC] [TIFF OMITTED] T9848.069

[GRAPHIC] [TIFF OMITTED] T9848.070

[GRAPHIC] [TIFF OMITTED] T9848.071

[GRAPHIC] [TIFF OMITTED] T9848.072

[GRAPHIC] [TIFF OMITTED] T9848.073

[GRAPHIC] [TIFF OMITTED] T9848.074

[GRAPHIC] [TIFF OMITTED] T9848.075

                                 <all>

</pre></body></html>
